HHS/OIG-Audit -"Review of Independent Diagnostic Testing Facility Services Performed by Garfield
Imaging Center,"(A-09-04-00044)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Independent Diagnostic Testing Facility Services Performed by Garfield Imaging Center," (A-09-04-00044)
May 5, 2005
Complete
Text of Report is available in PDF format (249 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether diagnostic services provided by Garfield Imaging
Center LTD (Garfield Imaging) to Medicare beneficiaries in calendar years (CY) 2002 and 2003 were performed
by qualified personnel under physician supervision pursuant to Medicare regulations and guidelines.  Based
on our review, we found that the diagnostic services Garfield Imaging provided to Medicare beneficiaries
in CY 2002 and 2003 were performed by qualified personnel under physician supervision pursuant to Medicare
regulations and guidelines.